U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Martez Howard v. United States of America
S.Ct. No. 20-8372
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 15,
2021, and placed on the docket on June 21, 2021. The government’s response is due on July 21,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including August 20, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8372
HOWARD, MARTEZ
USA

WHITMAN MATTHEW DODGE
FEDERAL DEFENDER PROGRAM INC.
101 MARIETTA STREET N.W.
STE. 1500
ATLANTA, GA 30303
4046887530

